<html>
<title> - THE HUMANITARIAN CRISIS IN SYRIA: VIEWS FROM THE GROUND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   THE HUMANITARIAN CRISIS IN SYRIA: 
                         VIEWS FROM THE GROUND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 21, 2014

                               __________

                           Serial No. 113-149

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
88-019                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e582958aa5869096918d808995cb868a88cb">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--5/20/14 
    noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida<greek-l>       JUAN VARGAS, California
TREY RADEL, Florida--resigned 1/27/  BRADLEY S. SCHNEIDER, Illinois
    14 deg.                          JOSEPH P. KENNEDY III, 
DOUG COLLINS, Georgia                    Massachusetts
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida<greek-l>        LOIS FRANKEL, Florida
LUKE MESSER, Indiana--5/20/14 
    noon deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Andrea Koppel, vice president of global engagement and 
  policy, Mercy Corps............................................     6
Ms. Holly Solberg, director of emergency and humanitarian 
  assistance, CARE...............................................    18
Ms. Pia Wanek, director, Office of Humanitarian Assistance, 
  Global Communities.............................................    25
Zaher Sahloul, M.D., president, Syrian American Medical Society..    31
Ms. Bernice Romero, senior director of policy and advocacy, Save 
  the Children...................................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Andrea Koppel: Prepared statement............................     8
Ms. Holly Solberg: Prepared statement............................    20
Ms. Pia Wanek: Prepared statement................................    27
Zaher Sahloul, M.D.: Prepared statement..........................    33
Ms. Bernice Romero: Prepared statement...........................    49

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    72


                   THE HUMANITARIAN CRISIS IN SYRIA: 
                         VIEWS FROM THE GROUND

                              ----------                              


                        WEDNESDAY, MAY 21, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ileana 
Ros-Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Thank you so much. The subcommittee will 
come to order. Unfortunately--well, fortunately, we will be 
interrupted by votes because I like to be interrupted by 
democracy. That is always a good thing. But after recognizing 
myself and ranking member, my good friend Ted Deutch from 
Florida, for 5 minutes each for our opening statements, I will 
then recognize other members seeking recognition for 1 minute 
each. We will then hear from our witnesses.
    Thank you, ladies and gentlemen, for joining us. Without 
objection, the prepared statements of all of our witnesses will 
be made a part of the record and members may have 5 days in 
which to insert statements and questions for the record subject 
to the length limitation in the rules. The chair now recognizes 
herself for 5 minutes.
    It is a tragedy that, unfortunately, we are all too 
familiar with. By now we have seen the images and heard the 
unimaginable stories of despair, of horror, of suffering, and 
we know all too well the alarming numbers. More than 150,000 
people have been killed as a result of Assad's war to stay in 
power. Nearly 3 million people have fled from Syria into 
neighboring countries, such as Jordan, Lebanon, Turkey, Iraq, 
creating instability within those countries as they struggle to 
cope with the strains that this massive influx of refugees has 
placed on their security and their stability; 6.5 million, that 
is the number of internally displaced persons, IDPs in Syria, 
and 10 million, that is roughly the number of people in dire 
need of humanitarian assistance, and sadly, the vast majority 
of those hit hardest by this crisis are the women and children 
of Syria.
    We are here today to get an important assessment from those 
who are on the ground who try to meet the needs of the millions 
of Syrians in desperate need of assistance. I would like to say 
thank you on behalf of our subcommittee to each and every one 
of you for the valuable work that you do. People who need your 
help and have the courage to come here today, thank you, and I 
know that comes at great risk.
    So far, the administration's approach to resolving the 
Syrian conflict leaves much to be desired by any metric. Unless 
the administration addresses the underlying root causes for 
this humanitarian disaster, we are likely to be here again next 
year and in the years to come asking the very same heart-
wrenching questions. Getting chemical weapons out of Syria is a 
vital step forward, but more importantly, we must be working 
together to ensure that Assad leaves power so that his reign of 
terror ends. These past 3 years plus, the administration has 
been plagued by inaction, by indecisiveness, by the inability 
or perhaps unwillingness to put into motion a policy plan that 
will lead to an end to this unthinkable human tragedy, and the 
time for half measures and fence sitting has long ago passed.
    We have been reactionary far too often where we should have 
been proactive. Our response has been to provide humanitarian 
assistance, and we will continue to provide it as long as 
millions continue to suffer needlessly, but that is never going 
to solve the problem. It is like trying to plug the holes in a 
sinking ship; short-term solutions to a much larger long-term 
problem. Syria is becoming the training grounds for violent 
extremists, destabilizing the entire region, endangering the 
security of our ally, the democratic Jewish State of Israel, 
and posing a threat to our own national security interests in 
the region as well.
    To date the United States has allocated over $1.7 billion 
to meet the humanitarian needs stemming from the Syrian crisis, 
nearly a quarter of all international contributions to Syria, 
and in his budget request for Fiscal Year 2015, the President 
has requested an additional $1.1 billion.
    We have with us today representatives of the five 
nongovernmental organizations who have helped serve as 
important, vital implementing partners, both in Syria and in 
the neighboring countries. The work that these NGOs do is 
important, vitally important, but it is also extremely 
dangerous, and as the ones who have to face the obstacles on 
the ground, it is vital that we hear directly from them about 
how effective our U.S. assistance has been with the hope of 
reaching as many people as possible.
    Just last week, the Associated Press ran a disturbing 
article on how corruption is seeping into the aid process for 
Syrian refugees. It tells the story of Syrian women who are 
forced to bribe middlemen in order to access some of the aid 
because some of the areas are just too difficult to enter for 
some of the NGOs or they simply just don't have the manpower to 
do it. So they rely on these middlemen to be honest brokers, 
and it seems that they are exploiting the loopholes in the 
system. And it is stories like these that show us how important 
today's hearing is so that we can better understand exactly 
what is happening on the ground.
    I look forward to hearing from our witnesses, these 
implementing partners, and what they have to go through in 
order to disperse the humanitarian aid that we provide and 
learn from them what more we can do so that we can better 
ensure that more people are getting the assistance that they so 
desperately need.
    And with that I am pleased to yield to my ranking member, 
my friend, Mr. Deutch of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    I would like to take a moment to offer my sincere thanks to 
the witnesses for being here today. Your organizations are 
quite literally on the front lines, and while we continue to 
debate policy actions here in Washington, it is the aid workers 
that risk their lives every single day to provide some relief 
to those suffering under the most horrendous human conditions. 
We owe each and every one of them our deepest gratitude, and we 
thank you for being here today.
    Syria is an extraordinary challenge in terms of sheer 
numbers of those in need, the lack of resources, and access, 
and the devastating levels of violence. In less than 2 months, 
the death toll has risen by 10,000, meaning over 160,000 people 
have lost their lives in this conflict. The number has risen so 
dramatically and access to so many parts of the country is 
limited, the United Nations can no longer keep an official 
death count. Inside Syria 6.5 million people have been 
displaced; nearly 10 million are in need of aid. The U.N. 
recently estimated that close to 250,000 of these people were 
unreachable because their communities were caught directly in 
the middle of the fighting, and there are now 2.8 million 
refugees. I know we have heard these figures before, but they 
bear repeating because the world needs to be reminded over and 
over again of the enormity of this conflict. There are nearly 
1,070,000 refugees in Lebanon, 740,000 in Turkey, 600,000 in 
Jordan, 225,000 in Iraq, and 137,000 in Egypt.
    The United States, as the largest donor of aid to the 
United Nations, has a responsibility to help ensure 
humanitarian access. U.N. Security Council Resolution 2139, 
which demanded that all parties, in particular the Syrian 
authorities, promptly allow rapid, safe, and unhindered 
humanitarian access for agencies and their implementing 
partners, including across conflict lines and across borders, 
is not being implemented. All of the parties to the conflict, 
including the Assad regime and the network of nonstate actors, 
must abide by this resolution and allow for humanitarian aid to 
reach the Syrian people unobstructed.
    The situation inside Syria is dire. Food deliveries are 
held due to eruptions of violence, reports of middlemen 
exchanging bribes for aid and simply not enough medical 
professionals to provide care. Children are going without 
needed vaccinations, sparking new cases of polio and measles, 
diseases that had all but been eradicated in Syria. An entire 
generation of Syrian children may not attend school because 
their school no longer exists in Syria or they need to work to 
support their now refugee families.
    In Lebanon, where Syria refugees make up one-quarter of the 
population, the school system can't physically support the 
influx of over 400,000 children. Furthermore, Syrian children 
are stymied by language barriers as they are not often used to 
learning in English or in French. I know that several of the 
organizations here today are specifically focused on children's 
needs, and I look forward to hearing more about your efforts to 
prevent a lost generation.
    In Jordan, the Zaatari refugee camp is now housing upwards 
of 120,000 refugees on any given day. Inside the camp we have 
seen reports of sexual assault, trafficking, and child 
marriages, and young men exposed to radicalization or enticed 
by opposition groups to return to fight in the conflict.
    We have spent the better part of 3 years now debating 
United States' response and policy prescriptions for Syria. For 
3 years, we have been told these are really hard decisions that 
we have to make. There may not be good decisions. It is just 
really difficult for us to decide. The choices are hard, but we 
have to make them. We need to make hard choices, and we need to 
make them now.
    I am pleased that the London 11 Group last week recognized 
that changes in access and speed of our humanitarian aid need 
to be made and made fast. I hope that this includes the U.N. 
Security Council addressing the issue of cross-border aid. We 
must get the international community to pay attention to what 
is happening inside Syria. I am frustrated at the pace of 
humanitarian response, and quite frankly the lack of funding is 
appalling. The U.N. has requested $6.5 billion for humanitarian 
aid this year, yet only $1.2 billion has been pledged by the 
international community. In total, since the conflict has 
begun, the U.S. has given $1.7 billion. The world simply cannot 
turn a blind eye to over 9 million people in need. This crisis 
will not end, will not end even if a political situation is 
somehow reached; 2.8 million will fundamentally alter the 
landscape of the region for decades. Entire communities in 
Syria will need to be rebuilt before refugees can even think of 
returning home.
    I hope that this hearing today will continue to shine a 
light on the enormity and the significance of what is happening 
in and around Syria. Again, I want to extend my sincere thanks 
and my profound gratitude to each of your organizations and the 
thousands of aid workers who put their lives at risk each and 
every day to provide relief to those suffering the most 
unimaginable horrors of war.
    Thank you, Madam Chairman. I yield back.
    Ms. Ros-Lehtinen. Thank you very much for a very eloquent 
statement. Thank you, Mr. Deutch.
    I am pleased to yield to another one of our subcommittee 
chairmen, Mr. Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chairman, and thank you for 
calling this important hearing to examine one of the most 
significant foreign policy failures of the Obama 
administration.
    The violence in Syria over the last few years has spiraled 
out of control, yielding a serious humanitarian crisis. It was 
in August 2012 that the President declared a red line, and 
today over 160,000 people have been senselessly killed. There 
is no end in sight to this crisis. The effort to rid Syria of 
chemical weapons is bogged down, and the White House has seemed 
to abdicate leadership on the issue. However, we know there are 
many Americans who care deeply about this humanitarian crisis 
in Syria. In fact, the organizations represented here today are 
working tirelessly to help the Syrian people, but they are 
facing serious obstacles that this administration needs to do 
more to ensure the better flow of goods into Syria. The U.S. 
needs to work closer with our friends and allies in the region, 
Turkey and Jordan, for example, to facilitate the movement of 
that cargo.
    I also call on the administration to better outline what is 
permitted under Syrian sanctions in terms of donations and 
medical services. As the U.S. is the largest contributor of 
humanitarian assistance, we here in Congress also need to be 
judicious in determining who is receiving this aid in Syria and 
ensuring that it reaches those people who need it most and that 
it is not going into the hands of the Assad regime or into 
those that are on the opposite side of freedom.
    So thank you for your leadership on this, Madam Chair, and 
I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    And now we are so pleased to welcome our wonderful 
panelists, and we are just thrilled to have you.
    First we welcome Ms. Andrea Koppel--thank you--who is vice 
president of global engagement and policy at Mercy Corps, where 
she leads global advocacy on issues, including the Syrian 
crisis and U.S. assistance reform. She has over 25 years of 
communications, journalism, and advocacy experience. And she 
previously served as director of international communications 
at the American Red Cross following the 2010 Haiti earthquake.
    We welcome you, Ms. Koppel.
    We also have with us Ms. Holly Solberg, who is director of 
emergency and humanitarian assistance at CARE. Ms. Solberg has 
20 years of experience in international relief and development 
and specifically in emergency management and humanitarian 
efforts. She has worked with CARE for nearly 19 years and has 
been based in Atlanta, Ethiopia, Mozambique, Thailand, Kenya, 
and Switzerland.
    We welcome you, thank you.
    Then we welcome Ms. Pia Wanek, who directs the Office of 
Humanitarian Assistance at Global Communities. She has more 
than 12 years of experience in the humanitarian field, having 
worked for USAID's Office of U.S. Foreign Disaster Assistance 
at State Department's Bureau of Population and at World Vision.
    We welcome you. Thank you.
    Fourth, we welcome Dr. Zaher Sahloul, who is president of 
the Syrian American Medical Society. Dr. Sahloul is a 
practicing critical care specialist in Chicago, and he just 
returned from his latest medical mission to the City of Aleppo. 
He has been on several medical missions to Syria, Jordan, 
Turkey, Lebanon, and Iraq and has also helped train medical 
relief workers in topics like medical practices in war zones.
    Thank you, sir.
    Last but not least, we welcome Ms. Bernice Romero, who is 
senior director for policy and advocacy at Save the Children. 
Before this, she was advocacy and campaigns director for OXFAM 
International and oversaw OXFAM's international advocacy 
offices in Washington, Geneva, Brussels, and New York.
    This is an impressive panel. Thank you all for being here.
    As you know, your written statements have been made a part 
of the record, so please feel free to summarize in 5 minutes. 
Thank you. We will begin with you.

   STATEMENT OF MS. ANDREA KOPPEL, VICE PRESIDENT OF GLOBAL 
               ENGAGEMENT AND POLICY, MERCY CORPS

    Ms. Koppel. Thank you, Chairwoman Ros-Lehtinen, Ranking 
Member Deutch, Mr. Chabot, and members of the subcommittee. 
Thank you so much for the invitation today and for the close 
attention you have paid to this incredibly complex and 
protracted crisis now in its fourth year.
    Mercy Corps is assisting the best we can in these 
extraordinarily difficult circumstances. For nearly 2 years, we 
have been delivering humanitarian assistance to civilians 
inside Syria through the most direct routes, reaching more than 
1.7 million people who are suffering. We are among the largest 
providers of food and baking flour. We are leading these 
programs with the generous support of donors, including USAID's 
Emergency Food Security Program, funded through the 
International Disaster Assistance Account.
    Every day, hundreds of my colleagues risk their lives 
delivering flour to Syrian bakeries to ensure that hundreds of 
thousands of Syrian civilians have bread to eat every day. In 
addition, we are also delivering a monthly supply of food 
staples, things like oil, beans, rice, pasta, enough to provide 
a family of seven with at least half their daily caloric 
requirements. And it is worth noting that by purchasing this 
food in the region, we are able to give American taxpayers more 
impact for their money, ensuring supplies are delivered quickly 
and at a lower cost, while also stimulating lower markets.
    For Mercy Corps and other dedicated aid agencies, Syria 
poses one of the most complex, hostile, and difficult response 
environments in which we have ever worked, but of course these 
humanitarian challenges, as you have already laid out, are not 
confined to Syria. Massive refugee flows into neighboring 
countries have turned a civil conflict into a regional crisis. 
The pressure on host countries is immense. By the end of the 
year, the number of refugees is estimated, and this is just 
registered, to move from 2.8 to at least 4 million. Caught in 
the middle are children, Syrian children, Lebanese children, 
and Jordanian children.
    With our partners UNICEF, Save the Children, World Vision, 
we are working to elevate the needs of children, especially 
adolescents to prevent, as you said, Ranking Member Deutch, 
what may become a lost generation. During focus group 
discussions that Mercy Corps had earlier this year with 
adolescents, we found a sense of humiliation was pervasive and 
often involved physical violence. Flash points with this 
violence revolved around disputes over wages, verbal assaults 
while they are playing in the neighborhood or just walking to 
school. One boy told us he would love to move to a country 
where humans are valued. ``If I cannot go there,'' he said, ``I 
want to leave this world.'' Another boy said, ``It would be 
better to return to Syria and fight and die with dignity than 
to continue to live here in humiliation.''
    While the situation is certainly bleak, there are a number 
of concrete steps that Congress can take right now to help the 
people of Syria and neighboring countries. First, there was a 
desperate need for funding humanitarian assistance that also 
supports more strategic longer-term needs. Congress can ensure 
that Fiscal Year 2015 humanitarian assistance and needs are met 
by fully restoring IDA, MRA, Food for Peace to Fiscal Year 2014 
enacted levels and by ensuring that IDA and MRA accounts are 
more adaptable in order, where appropriate, to graduate 
emergency funds into more strategic longer-term programs that 
integrate both relief and development aids.
    Second, Congress must urge the administration to push for, 
as you said, Congressman Deutch, the full implementation of 
U.N. Security Council Resolution 2139 and to work with the U.N. 
to maximize coordination and do a better job of including civil 
society actors in decisionmaking.
    Third, humanitarian aid must not be used as a proxy for the 
lack of a political solution.
    And, fourth, Congress should call on the administration to 
prioritize programs that build the resilience of refugees and 
host communities with a special focus on adolescents and 
integrated conflict mitigation.
    In conclusion, I would like to say that through our work in 
partnerships in the region, we have been humbled and touched by 
the grace and the dignity of the Syrian people as well as by 
the generosity of their regional hosts. I wish to sincerely 
thank the members of this subcommittee for its focus on this 
tremendously important issue and for extending me the privilege 
of testifying here today. I would be more than willing to 
accept your questions later.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Koppel. Thank you 
for your testimony.
    [The prepared statement of Ms. Koppel follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. And before we continue with our 
panelists, we are thrilled to announce that Mr. Royce, the 
chairman of the full committee, is so interested and immersed 
in this topic that he is joining us today, and I would like to 
call upon him to make statements if we may. Thank you.
    Thank you, Mr. Chairman.
    Mr. Royce. I thank our chairman emeritus, Ileana Ros-
Lehtinen for that, and I also thank the ranking member.
    We are in the fourth year of this crisis, unfortunately, 
and I do want to thank Eliot Engel and this committee 3 years 
ago for trying to get us focused and trying to push the 
administration and all of us to take more concerted action, and 
I guess the frustration that we have is that the United States 
and the international community continue to struggle with an 
issue that shouldn't have been such a struggle, which is the 
delivery of aid to Syrians most in need, and the problem 
started with delivery of aid through the regime rather than to 
the areas most in need. And we have solved some of that 
problem, but unfortunately, men, women, children have been 
besieged by the Assad regime now for about a year in many of 
these cities, and others remain isolated due to the heavy 
fighting between the regime and opposition groups, and a third 
faction now, a faction that wasn't in this when we started, and 
that was the terrorist organizations, the jihadists who came in 
from outside of the country, and this was why it was important 
early on to have heeded the advice of Eliot Engel and others, 
for the administration to have heeded the advice and gotten 
weaponry to the Free Syrian Army.
    Now we are doing that, but we are not doing it to the 
extent necessary, and we have not been doing it to the extent 
necessary, and now we have something that Assad's regime has 
the audacity to implement, this kneel or starve campaign.
    So the problem is not new. The U.N.'s delivery of aid 
solely through areas controlled by the Assad regime has been 
the primary obstacle early on to ensuring the delivery of aid 
where needed most. The U.N.'s obligations in this regard have 
recently been debated legally by legal experts, but it is clear 
that the U.N. could have much more flexibility if Russia would 
allow it.
    So it is time to think of new solutions. The House Foreign 
Affairs Committee last month passed unanimously House 
Resolution 520, which states that the United Nations needs to 
find new ways of delivering that aid, including through private 
partners, to the Syrian people, who are being besieged. And 
finally, I am encouraged that Secretary Kerry is now calling 
for the same, and the United States has provided now $1.7 
billion in humanitarian aid in response to this crisis over the 
last 3, and I guess it is about 3\1/2\ years through the U.N. 
Our concern for the Syrian people and our stewardship of these 
taxpayer dollars requires that we ensure the intended delivery 
of the assistance it funds. We need to be much more emphatic 
about that.
    Alarmingly, the Assad regime has not stopped at blocking 
aid, but its forces routinely target humanitarian workers and 
facilities, especially those providing medical care to 
suffering Syrians. They target them with snipers. They have 
killed doctors. They target them with shelling, and of course, 
as you are reading, with barrel bombs, and somebody needs to 
say something more about the additional chemical attacks, some 
14 attacks, 13 or 14, that have been cataloged by the French 
Government. It is time that our governments speak out about, 
again, the use of chemical weapons on those civilians. Various 
credible sources have reported that these barrel bombs have, in 
fact, been filled with weaponized chlorine in recent weeks 
despite the regime's alleged commitment to cease all chemical 
weapons attacks. It is my intent to write a letter to the 
President asking what he is going to do about this, and I would 
urge any member of this committee to join me in that letter. 
And I welcome our esteemed panelists today, who I suspect will 
be able to attest to many of these challenges, especially the 
regime's attacks against medical personnel and facilities, and 
Dr. Sahloul, a close friend of the committee and president of 
the Syrian American Medical Society, SAMS, joins us today after 
recently returning from yet another trip to Syria, where he 
personally provided aid and witnessed unspeakable horrors. He 
along with others in the Syrian American community have 
contributed heroically to the American and international 
response to this humanitarian disaster. And I applaud their 
efforts and I encourage the administration and the U.N. to work 
more closely with Syrian American groups. That is where we 
should be moving the aid, through Syrian American groups. 
Frankly, if we moved all our aid through Syrian American 
groups, to me, that would be the ideal solution. I have 
communicated that to the administration. That ensures that our 
assistance reaches those Syrians who most need it.
    Thank you very much, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Royce, Mr. 
Chairman, for joining us. It is always a delight to have you 
with us. Thank you.
    I would like to yield for a minute opening statement at 
this time, Brad, if you would like.
    Mr. Schneider. Thank you, Madam Chair.
    I want to thank the witnesses for being here. We all know 
how large and significant the crisis is in Syria. I am looking 
forward to the testimony. I know that we need to make sure we 
are doing all we can to take care of the refugees, to take care 
of our allies in the region, and to make sure that we bring a 
political end and a peaceful end sooner rather than later to 
this crisis.
    So, again, I thank you for being here.
    And I will yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider.
    Mr. Kinzinger, if you have an opening statement for 1 
minute.
    Mr. Kinzinger. Well, thank you, and thank you to the 
panelists for being here and thank you for holding this 
hearing. I am just very interested in hearing obviously about 
the situation on the ground. I am a big believer that it is 
high time for the United States and the West to get involved 
and to ensure the overthrow of the Assad regime and to support 
the Free Syrian Army. So I am interested in hearing ways that 
we can do that but also through the humanitarian crisis ensure 
that everybody is taken care of. So thank you for holding this 
hearing, and I will yield back.
    Ms. Ros-Lehtinen. Thank you. Thank you to all the members.
    Now we will continue with our witnesses.
    Ms. Solberg, you are recognized.

   STATEMENT OF MS. HOLLY SOLBERG, DIRECTOR OF EMERGENCY AND 
                 HUMANITARIAN ASSISTANCE, CARE

    Ms. Solberg. Chairwoman Ros-Lehtinen, Ranking Member 
Deutch, members of the subcommittee, thank you for holding this 
important hearing and for inviting me on behalf of CARE to 
testify before you today. My statement today is a summary of 
the statement I have submitted for the record.
    The United Nations Under Secretary for Humanitarian Affairs 
and Emergency Relief, Valerie Amos, has described the crisis in 
and around Syria as the biggest humanitarian crisis the world 
today faces, with little signs of abating. I can assure you 
that her statement is not an exaggeration. CARE has decades of 
experience responding to humanitarian crises, and this is by 
far one of the worst we have seen. CARE works in 87 countries 
around the world, supporting poverty-fighting development and 
humanitarian assistance projects. Between 2012 and 2013, CARE 
responded to 53 emergencies in 34 countries, reaching over 4 
million people.
    In our response, we place support for the needs and rights 
of women and girls at the heart of our humanitarian 
programming. Of the close to 3 million Syrian refugees, 75 
percent are women and children. I want to focus my remarks 
today on three areas: First, a description of what CARE has 
witnessed on the ground in and around Syria since the conflict 
began and its impacts on Syrian refugees, internally displaced 
people, and neighboring countries; second, CARE's response to 
this crisis; and, third, the important role of the United 
States Government.
    As you know, the Syrian crisis has shattered millions of 
lives, the economy is in ruins. Every aspect of social and 
physical infrastructure has been seriously damaged with long-
term erosion of livelihoods, assets, and access to education. 
More than 220,000 people remain trapped in besieged areas, and 
several million more Syrian civilians are prevented from 
reaching life-saving humanitarian assistance inside Syria. The 
high intensity of the conflict has led to new ways of large-
scale displacement, both within Syria and in neighboring 
countries. Syria's neighbors are generously hosting almost 3 
million refugees who have been forced to flee their homes, a 
number that is expected to rise to over 4 million by the end of 
this year.
    This has placed an inordinate pressure on these hosting 
nations. For example, in Jordan, with a population of just over 
6 million, is hosting nearly 600,000 refugees. The protracted 
nature of this conflict not only increases tensions between 
refugees and host communities, it also weakens the development 
opportunities of those displaced as well as the stability of 
the region. CARE's goal is to ensure the dignity and resilience 
of those most affected by the Syrian regional crisis so that 
they are empowered to support the social and economic recovery 
of their communities. To date, CARE and our partners have 
provided life-saving services to more than 400,000 people in 
Jordan, Lebanon, Egypt, and to the people inside Syria. Some of 
our intervention areas include emergency cash assistance, 
provision of food and other basic necessities, and psychosocial 
support to name a few. We have set up urban centers where 
refugees and vulnerable host community members can have access 
to available services as well as be referred to specialized 
external services. This approach also helps to reduce tensions 
between refugees and host communities. Our support to families 
affected by the Syrian crisis is based on humanitarian needs 
alone, regardless of religion, political affiliation or 
ethnicity. While CARE is working to scale up our response in 
Syria, we have so far reached more than 170,000 people, much of 
our focus is to assist refugees living in urban or noncamp 
settings because they make up the majority, approximately 80 
percent, of those living in neighboring countries. In addition 
to our focus on urban refugees and people displaced within 
Syria, CARE has partnered with UNHCR and the Jordanian 
Government to establish the newly opened Azraq refugee camp.
    I want to conclude by offering CARE's recommendations for 
how the U.S. Government can continue to play a leadership role 
in responding to this humanitarian crisis. While my testimony 
has focused on CARE's work in Syria's neighboring countries, we 
are working very hard to also support civilians inside Syria. 
That said, humanitarian access into Syria is significantly 
restricted and greatly limiting humanitarian organizations from 
reaching the millions in need. We ask Congress to work with the 
U.N. to find solutions to unfettered humanitarian access.
    Lastly, CARE greatly appreciates the U.S. leadership in 
addressing the Syrian humanitarian crisis, providing more than 
$1.7 billion in humanitarian assistance to date. We also ask 
that the Fiscal Year 2015 proposed budget cut is respectfully 
restored to its critically needed funding.
    Let me conclude with this: The Syrian conflict is the most 
catastrophic humanitarian crisis of our time. The U.S. 
Government and its partners have a pivotal role to play, not 
only in helping to bring an end to the conflict, but in saving 
millions of lives in the process. Thank you.
    Ms. Ros-Lehtinen. Thank you very much.
    [The prepared statement of Ms. Solberg follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Ms. Wanek.

 STATEMENT OF MS. PIA WANEK, DIRECTOR, OFFICE OF HUMANITARIAN 
                 ASSISTANCE, GLOBAL COMMUNITIES

    Ms. Wanek. Chairwoman Ros-Lehtinen, Ranking Member Deutch, 
members of the committee, thank you for the opportunity to 
testify today on the important topic of the Syrian refugee 
crisis. I will present to you now an abridged version of our 
written testimony.
    I am the director of humanitarian assistance for Global 
Communities. Global Communities is working in Lebanon in 
partnership with UNHCR to assist Syrian refugees and Lebanese 
host communities. Our organization has worked in Lebanon since 
1997 through many conflicts and disastrous situations. This 
crisis, however, is of a scale, new scale altogether. In April 
2014, the number of Syrian refugees in Lebanon exceeded 1 
million, nearly 40 percent of the total Syrian refugee 
population in the region. Among this million are more than 
300,000 unschooled children working or begging in the streets. 
Syrian refugees in Lebanon constitute 20 percent of the total 
population of the country. This is as though the entire 
population of Canada was uprooted and moved into the USA twice. 
There is no other country in the world today that hosts such a 
high proportion of refugees compared to its own citizens. My 
remarks today will address the situation in Lebanon 
specifically along two main points.
    My first point: Syrian refugees and Lebanese citizens are 
competing against each other for the same resources. We must 
increasingly focus our support on longer-term solutions for 
host communities and Syrian refugees, as shared services have 
reached a breaking point. Before the Syrian war, Lebanese 
communities across the country were already poor, with 23 
percent living below the poverty line. The influx of refugees 
has exacerbated the situation. With the bulk of assistance 
going to refugees, Lebanese communities are worse off than 
ever. The World Bank estimates an additional 170,000 Lebanese 
have been pushed into poverty by the crisis and that, by the 
end of 2014, 75 percent of Lebanon's 4.1 million citizens will 
be in need of some form of financial shelter or food support.
    With the refugee crisis accelerating, we must consider the 
situation in Lebanon to be longer term. We must position the 
aid that is being supplied so that we are providing durable 
solutions for the needs of the refugees and their Lebanese 
hosts. This goes beyond shelter, food, and medicine into 
providing assistance to reduce the strain on Lebanon's shared 
housing, energy, education, and water resources.
    This leads to my second point. Failure to support refugees 
and host communities will create a destabilizing effect in 
Lebanon and throughout the region. The more than 300,000 
unschooled Syrian refugee children are vulnerable to 
recruitment by radical groups. Disenfranchised Lebanese youth 
are also vulnerable to such recruitment. Where there are gaps 
in refugee and host community assistance, extremist factions 
are stepping in and exploiting vulnerable populations. Our 
experience on the ground is that Lebanese community members are 
reporting an increase in disputes relating to Syrian refugees. 
Law enforcement officials believe an increase in the crime rate 
is linked with the growth of the Syrian population, and whether 
these claims are rumor or fact is difficult to determine, but 
the perception alone is damaging enough to relations between 
Syrian and Lebanese communities. Syrian refugees will be in 
Lebanon for many years to come. Aid needs to be focused on 
easing the divide between communities, identifying common 
interests, and creating shared benefits. Failure to do so will 
allow simmering tensions to escalate and destabilize a country 
already deeply vulnerable to conflict. There is a tremendous 
danger of the Syrian conflict erupting in Lebanon and then 
spiraling outwards into a regional conflict, engulfing U.S. 
allies, such as Israel and Jordan.
    In December 2013, UNHCR released projected funding needs 
for 2014. The plan appealed for $4.2 billion to cover 
assistance to refugees and host communities across the region. 
It is the largest donor pledge in history. The total U.S. 
humanitarian commitment is more than $1.7 billion, the largest 
of any nation. Nevertheless, the appeal is only 25 percent 
funded. Unfilled, there is not enough assistance for refugees 
or host communities. We recommend that the U.S. Government 
continue to support the needs, immediate and longer term, of 
the people affected by this conflict. We strongly encourage the 
U.S. Government and other governments to live up to their 
pledges to ensure that the response to the crisis is fully 
funded. We recommend that the United States Congress in 
particular provide robust funding for the humanitarian 
assistance accounts of the Fiscal Year 2015 Federal budget as 
detailed in our written testimony. We commend the U.S. 
Government for its leadership and commitment to protecting the 
vulnerable communities around the Syrian conflict. We ask that 
you continue to provide this support as an example to the 
international community. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Wanek.
    [The prepared statement of Ms. Wanek follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Dr. Sahloul.

 STATEMENT OF ZAHER SAHLOUL, M.D., PRESIDENT, SYRIAN AMERICAN 
                        MEDICAL SOCIETY

    Dr. Sahloul. Good afternoon. Thank you, Chairman Ros-
Lehtinen and Ranking Member Mr. Deutch for sponsoring this and 
for inviting me.
    Thank you for my friend Mr. Schneider, we worked in Chicago 
for interfaith dialogue with the Catholic Theological Union, 
and we are here today on a different occasion.
    And thank you for Mr. Kinzinger, who worked closely with 
the Syrian American community in Illinois also.
    To me, it is very personal because I am the only Syrian 
American on this panel. I have family in Syria, and as you have 
mentioned, I have gone several times to Syria as a medical 
mission to make sure that our friends, our colleagues, the 
Syrian American physicians and nurses have what they need in 
terms of medical supplies and medications and equipment. And I 
can tell you that with the help of our Government, SAMS and 
other Syrian American organizations are able to get any medical 
equipment or medical supplies or medication to any place in 
Syria across the border, and we would like to urge our 
Government to support expansion of these cross-border 
operations because we think that this is the only thing that 
can save millions of people from illness or from food 
shortages.
    I can tell you also that by the end of this hearing, 
unfortunately, we will have 800 more Syrians who are displaced, 
among them 600 women and children and among them 400 children 
who will not have education. By the end of this hearing, also, 
we will have another 200 people in Syria who are killed. By the 
end of this hearing, we will have 500 more people in Syria who 
have lifelong disability. We are talking about a scale of 
disaster that is unencountered in our life. This is the worst 
disaster that you will have in your life. The number of people 
impacted in Syria by the crisis by the disaster are more than 
the total number combined of the disaster in South Sudan and 
Central African Republic, in Bosnia, and Rwanda combined. We 
are talking about the worst humanitarian disaster in our time.
    I came recently from Syria. I am a critical care 
specialist. I go there and take care of patients in the ICU, 
and I brought some pictures, so I hope that you can bear with 
me in looking at these pictures. I want to first mention some 
of the stories that I have encountered. The first one is about 
a child, his name is Mohamad Alabrash. He was preparing to go 
to school. He is 6 years old. And then he heard the sound of 
helicopter. He looked at the sky, and then the helicopter threw 
a barrel bomb. Then he saw yellow smoke coming out, and then he 
started choking, him and his mother, who was pregnant, also. 
They started choking, and they have respiratory symptoms, and 
they were taken to the emergency room of a field hospital where 
they had to be intubated because they had fluid in their lungs, 
they had respiratory failure. They were transported to a border 
hospital that were supplied by ventilators and monitored by our 
organization. Unfortunately, the child, Mohamad Alabrash, has 
died; his mother, who was pregnant, was saved. This happened in 
April 21st, only a few weeks ago.
    Yesterday, there was another chemical weapons attack in the 
City of Kafr Zita north of Hama, and one person who is 14 years 
old with special needs died, another person who is 70 years old 
also has died. Most of the people who were exposed to chemical 
weapons attacks in the last few months were civilians. 
According to our report that we combined in the field, 1,000 
people had symptoms related to exposure to chemical agents. 
Among them, 12 people who were killed because of exposure to 
chemical agents. This is not sarin gas. This is not nerve gas. 
This is what is called a choking agent. It is called chlorine 
gas according to our experts in the field.
    We urge President Obama to use all of his powers to stop 
the chemical weapon attacks on Syrians and also to stop the 
barrel bombing attacks on the City of Aleppo. Two things that 
are hurting Syrian civilians more at this point, chemical 
weapon attacks and barrel bombing attacks. In the City of 
Aleppo, I went there in October and the streets were bustling 
with people and civilians. Right now, 75 percent of the people 
in the City of Aleppo have deserted this place because of the 
barrel bombing campaign that started in December of last year. 
I have seen hospitals that were bombed. I have seen schools 
that were bombed. I have seen neighborhoods that were full of 
people that right now are ghost towns. And I have seen 
physicians and nurses, you know, struggling to save their 
patients, and they are asking for all kinds of assistance. One 
of the physicians in one of the hospitals told me, Please send 
us everything that you can, antibiotics, gloves, and also send 
us body bags because we run out of body bags.
    I believe that our Nation is able to do much more than what 
we have done in the past. I urge you to support humanitarian 
assistance to the Syrians, but I urge you also to do much more 
to end the crisis and force a political settlement. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Doctor. Thank you 
for your work.
    [The prepared statement of Dr. Sahloul follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Ms. Romero.

STATEMENT OF MS. BERNICE ROMERO, SENIOR DIRECTOR OF POLICY AND 
                  ADVOCACY, SAVE THE CHILDREN

    Ms. Romero. First of all, I just want to thank Chairwoman 
Ros-Lehtinen and Ranking Member Deutch and the members of the 
subcommittee for the hearing.
    Ms. Ros-Lehtinen. Can you put the microphone a little bit 
closer. Thanks.
    Ms. Romero. Does that work?
    The Syrian conflict has taken a devastating toll on Syria's 
children; 4.3 million need assistance and more than 10,000 
young lives have been lost. Save the Children has worked in the 
Middle East for decades, providing assistance to over 1.6 
million people, including 1.2 million children.
    My remarks draw on our experience addressing the needs of 
children affected by the Syrian crisis. I will focus on two 
issues. One, education, particularly in Lebanon, and, two, 
child protection, especially child labor in Jordan. I will also 
mention two crucial issues, humanitarian funding and improved 
humanitarian access.
    Continued education in crises is critical. It can give 
children a sense of stability, provide protection, and tell 
children they have a future, but many Syrian children face huge 
barriers to continuing their education. In fact, 3 million 
children have now dropped out of school in Syria, and 68 
percent of refugee children are not in school. There are many 
challenges in host countries--overcrowding, high dropout rates, 
and lessons in languages the children don't even understand. 
For many, just getting to school is too expensive or they don't 
want to go because they are afraid of being bullied. 
Educational challenges are especially acute in Lebanon, which 
has received a staggering number of refugees, somewhere between 
1 and 1.5 million. Lebanon would have to more than double its 
current education infrastructure to meet the needs of Syrian 
children. Less than 20 percent are currently enrolled, and 
dropout rates reach up to 40 percent. Children are being sent 
instead out to work in fields for $2 a day or others as young 
as 3 can be seen begging in the streets. Skills training for 
youth is limited, leaving them with unstructured days, few job 
opportunities, and little hope.
    We need to start having hard conversations on how to tackle 
the problems that are stopping Syrian children from learning, 
not just in Lebanon but throughout the region. That needs to 
happen now. Already most have lost up to 3 years of school. A 
long-term plan that prioritizes, protects, and enables refugee 
education in host countries needs to be developed urgently. The 
international community needs to fund it and help host 
countries shoulder the burden. We urge the U.S. to work with 
others and support host country efforts to expand educational 
infrastructure, vocational training programs, and nonformal 
learning centers. Host governments can't do it alone, and 
Syria's future depends on the skills and knowledge these 
children gain today.
    Inside Syria children are being killed and injured and 
witnessing or experiencing atrocities. Three out of four 
children have now lost a loved one to the conflict and reports 
of early marriage, sexual abuse, and domestic violence are 
rising.
    According to UNICEF, 1 in 10 children across the region is 
now engaged in some form of child labor. The problem may be 
greatest in Jordan where children are often working in 
hazardous industries. Eighty percent of girls working in Jordan 
are in domestic labor or agriculture, both known for high 
levels of sexual exploitation. The main reason children are 
working is to support their families. Syrians can't officially 
work in Jordan and a number of studies show a direct link 
between the lack of livelihoods, opportunities, and the high 
levels of child labor. Namely, it is easier for a child to find 
work, and the ramifications for a child caught working 
illegally are less severe. As a result, Syrian refugees rely 
heavily on child labor to supplement family income. Of the 
households that reported paid labor in the past month, 47 
percent reported that some or all of this income was from 
children. The Government of Jordan has been generous, but the 
problem requires U.S. and other donor support to ensure policy 
reforms that protect children in informal labor and programs 
that provide job training and opportunities and provide 
financial support.
    Children inside Syria face additional protection challenges 
to deal with the direct violence of war. The U.S. should use 
its influence to ensure parties to the conflict agree not to 
target or allow military use of schools or health facilities 
and agree not to use explosive weapons in populated areas, the 
primary reported cause of children's deaths.
    Despite the challenges, aid is making a difference. We urge 
Congress to protect U.S. humanitarian accounts against cuts. We 
also need improved access to people living inside Syria, U.N. 
Resolution 2139, to allow humanitarian access was a political 
breakthrough, but nearly 3 months after its adoption, only a 
trickle of the aid is making it through. Every day that goes by 
without access is another fatal day for children. Congress 
should send a clear message about the importance of 
humanitarian access, pushing for the resolution's full 
implementation and encouraging U.N. agencies to fund cross-
border aid and increase their important coordination role.
    There is a risk that Syria will become just another 
conflict that we all view as hopeless and therefore ignore, but 
the children of Syria deserve better. We look to you for the 
support needed to reduce current suffering and improve the 
future outlook for Syria's children. Thank you.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Romero.
    [The prepared statement of Ms. Romero follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, all of you, for being here to 
discuss the important work you do, the challenges that your 
organizations face, and what we need to do or change in order 
to ensure that our relief efforts are being maximized.
    I want to extend a heartfelt thank you to each and every 
one of you and your organizations, who, in many instances, have 
caregivers and are risking their lives on a daily basis in 
order to get supplies to those in dire need. It is a dangerous 
job, and I am sure it is a rewarding job, but it is often a 
thankless job, at least by those who aren't directly impacted 
by your work on the ground in Syria. So thank you so much.
    What more do you need from the U.S. and other donor 
countries? What is the most pressing issue that isn't being 
adequately addressed?
    Ms. Koppel, we will start with you.
    Ms. Koppel. Thank you, Madam Chairwoman. I would say, as 
many of my colleagues have already cited, to fund the--
basically, for Fiscal Year 2015 funding, to restore the 
humanitarian assistance cuts that were made in the Fiscal Year 
2015 request by the Obama administration, restore them to 
Fiscal Year 2014 levels, especially IDA, MRA, and Food for 
Peace. We would also urge you to use your influence with the 
administration to get the U.N. to fully implement 2139. But in 
doing so, with the U.N., if it were to move toward cross 
border, we need the U.N. to work on coordinating this cross 
border. We need to, as we heard some of the members mention, 
there are about 240,000 people who are estimated to be living 
in besieged communities. We have no idea how much, if any, aid 
is getting in. We need assessments to be made before we start 
delivering aid, and we need post distribution of reviews and 
monitoring to be made to ensure that the aid is reaching the 
most vulnerable. We need to be accountable for that. These are 
humanitarian principles that all of us must abide by. Thank 
you.
    Ms. Ros-Lehtinen. Thank you. Anyone else? Ms. Solberg?
    Ms. Solberg. Thank you. Thank you very much. I would just 
complement that by saying as well, I think, what we need is 
around the coordination with the United Nations, but really 
also support with developing a comprehensive strategy, so one 
that is actually addressing the humanitarian needs today but 
looking further into the future and supporting for livelihood 
opportunities as well, so it does fit in very closely with the 
need for the funding levels to be brought back to the levels 
that they were before.
    Ms. Ros-Lehtinen. Thank you.
    Doctor?
    Dr. Sahloul. A few things. The first thing that the United 
Nations distribution of aid has been changed in the last year, 
and according to the reports, that 85 percent of food 
distribution and 75 percent of medical aid is distributed only 
through the regime-controlled areas. That means what is left to 
the 9.5 million people who live outside of the regime-
controlled area is less than 15 percent of food supplies and 25 
percent of medical aid, and these are the population who are in 
much need. So somehow we need to change this formula so we can 
support the organizations, the NGOs that are assisting the 
people who are in much need, not probably through the United 
Nations but through different ways. We have to change this, 
reverse this formula.
    The other thing that I urge this committee and all House 
Members to support House Resolution 520 that calls the 
administration to expand humanitarian assistance and stop the 
attack on civilians. The attacks on civilians and hospitals and 
infrastructure is continuing unhampered, and it is causing more 
destruction of hospitals and clinics and bakeries and schools 
that we can build and that we can support. So unless we can 
stop the barrel bombing, unless we can stop the bombing of 
hospitals and schools, then whatever we do will not be able to 
sustain and support the population. The population in the City 
of Aleppo, which is the largest city in Syria, needs to 
breathe, needs to care about development. The civic society 
needs to work. And if you have 20 barrel bombs raining on you 
every day, no matter what we do, we cannot support them, so 
they are forced to be displaced. They are forced to be leaving 
to Turkey or to neighboring countries, and this is a huge 
problem. So somehow the administration has to stop that from 
happening.
    Ms. Ros-Lehtinen. Thank you.
    Ms. Romero?
    Ms. Romero. Yeah, I mean, I would support everything 
everyone has said already, particularly around the need for 
sustained funding and the need to support the access 
resolution, the implementation of that, and the emphasis on 
cross-border aid, adding to that the need for more funding 
specifically for cross-border aid, more flexible funding models 
than what we have at present, but also the use of the U.S.'s 
good offices in terms of diplomatic pressure on other donors, 
particularly nontraditional donors. It is outrageous that we 
are fronting like almost 25 percent of all of this, and also 
more support to host countries in a more long-term sustainable 
way, particularly around child-specific issues. I mean, they do 
represent 50 percent of those that are being affected, and they 
are the future of Syria and of stability in the region, so a 
bigger investment in children.
    Ms. Ros-Lehtinen. Thank you very much.
    Thank you to all of you. I think we have time for Mr. 
Deutch's questions before we will be interrupted by a vote. Mr. 
Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    First, thanks to all of you for testimony that was as 
powerful as the work that you are doing on the ground.
    I learned a new term a couple weeks back. Perhaps you have 
heard of it. Psychic numbing. Are you familiar with the term? I 
wasn't. And it was used in response to a question that I asked 
about how we make this awful tragedy, the worst humanitarian 
crisis that most of us have seen, how we make this relevant to 
so many people who don't think about it. So that, as, Ms. 
Romero, you said, this doesn't just become another conflict 
that we all view as hopeless.
    Ms. Romero. Yeah.
    Mr. Deutch. So how do we do it? This is a really important 
discussion about funding and putting pressure on others to step 
up. But how do we--all of you work with groups and are there on 
the ground every day.
    Dr. Sahloul, let me start with you. You discussed what 
happens when chlorine is used. I just hope that you can spend a 
minute telling us what a barrel bomb is. What is it? Who is it 
dropped on, and what does it do?
    Dr. Sahloul. I have seen it, and actually, one of the most 
common scenes and bizarre scenes that you face in the City of 
Aleppo that when you are walking, and I walk in the street in 
some of the neighborhoods, you see people pointing to the sky 
and then you see this small dot which is a helicopter, and then 
suddenly this small dot will throw another dot, and it takes 
about 20 to 30 seconds for that dot to come and explode, and 
this is a barrel bomb. Barrel bomb is a barrel that is stuffed 
with TNT. We are not talking about a small amount of TNT; 200 
to 500 kilograms of TNT, that can cause the destruction of one 
whole block and a lot of killing. I have seen the consequences 
of that in the hospital when you bring patients who are injured 
and amputated and killed because of this, and lately, these 
barrel bombs have been stuffed not only with TNT and shrapnel 
and petrol but also with chlorine gas, according to the report. 
I have talked with physicians who are treating these patients 
who are exposed to chlorine gas. It is a very choking gas, and 
it can cause death, and it is a chemical agent. It is a 
prohibited agent. It is one of the agents that is prohibited by 
the conventional chemical weapons convention that Syria has 
signed on it, and it has been used frequently in the last few 
months, and we are not doing anything.
    Mr. Deutch. Dr. Sahloul, what happens when it is dropped on 
a school?
    Dr. Sahloul. I have seen children, pictures, of course, and 
I have talked with physicians who have treated these children, 
people start to choke. Then they will start to have coughing, 
and sometimes you will have irritation of the skin and the 
eyes. Then they stop breathing, and many of them are 
transported to the emergency room and the hospital that are not 
equipped to treat chemical weapon attacks and chemical weapon 
agents. We are talking about a country in crisis, where the 
healthcare system has been already destroyed, and then you have 
chemical agents dropped on them on a daily basis, and the world 
is not paying attention. I mean, I agree with you that why is 
it that the world is not paying attention to this? I mean, I 
know that the crisis has been going on for 3 years, but we have 
children who are dying every day, we have people who are 
affected every day, more than the people who are affected by 
Boko Haram. I mean, we are not seeing policymakers speaking 
about the issue in Syria. I think we have to have leadership in 
this country that cares about the Syrian fight, which I believe 
that they care, but also make sure that this is in the public 
sphere. When the President of the United States or the 
Secretary Kerry talk about what is happening in Syria to the 
American public, I think they will care. You will see more 
support to humanitarian assistance, you have churches and 
synagogues that will donate, as they have donated to Haiti, for 
example. They are not doing that for Syria because Syria is 
away from the public eye.
    Mr. Deutch. Okay. Let me just ask, and anyone jump in, but 
there are--you know, what we hear all the time, and this is my 
concern, Ms. Romero, when you talk about the way the crisis in 
Syria is viewed, what we hear all the time is, well, it is 
really hard for us to know what to do, because there are so 
many different people fighting one another and it is hard to 
tell who we can support, who are the worst parties, and so, 
therefore, we will try to help on a humanitarian level.
    What can any of you tell us to make this more urgent, to 
make all of us understand what you devote so much of your time 
to this crisis? Ms. Koppel.
    Ms. Koppel. Ranking Member Deutch, we struggle with this as 
well. Many of us in--when there is some kind of a natural 
disaster, like the cyclone in the Philippines or the earthquake 
in Haiti, are surprised by the extent of the generosity of the 
American public. This is a protracted crisis. We are in our 
fourth year, and people have become numb. I think it isn't, as 
the good doctor mentioned, in the public sphere.
    You are going home for the Memorial Day recess. I would 
urge you to talk to your constituents about the fact that if 
this were the United States, that would be the equivalent, if 
you are looking at Lebanon with 25 percent of its population 
being refugees, of 79 million refugees in the United States. 
Who would be there to help us?
    Mr. Deutch. Let me----
    Ms. Koppel. And if I could just add one other thing. The 
solution--as much as we as humanitarian actors are responding 
to the need of the civilians, but the solution is a political 
one. We need to replace the special U.N. Envoy, Lakhdar 
Brahimi, as quickly as possible. He just resigned last week. 
There must be a political process and ultimately a political 
solution.
    Mr. Deutch. I appreciate it, and--but just before I yield 
back, Madam Chairman, I appreciate trying to show us what the 
scale would be in this country. I would just suggest that for 
all of us who are going back to our districts, the school year 
is coming to an end, and the fact is that if any of us imagined 
any school in our district, any school in this country with 
kids on the playground looking up at a helicopter waiting for 
that dot to grow, knowing that it is a barrel full of TNT and 
shrapnel and perhaps chlorine that could strike at any moment 
and kill and maim and do grave damage, that would be enough, 
that would be enough to rally everyone in this country.
    And I--again, I just have so much respect for what you all 
do and I really appreciate your being here. And I hope your 
being here and sharing the important work that you do and the 
horrible situation on the ground will help propel this debate 
forward so that we can plan----
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch.
    And we have zero time remaining for our votes, and so our 
subcommittee will hover, and we will vote and come back.
    Mr. Schneider. Madam Chairman, if I can just have 2 seconds 
for one open question, not for an answer.
    But as you said, Ms. Koppel, the only solution is a 
political solution; a military solution on either side would be 
a catastrophe. On the day that there is a political solution, 
if you could submit for the record, or just I invite for an 
ongoing conversation, what the scope, the scale and the 
duration of the ongoing work after that political solution to 
make sure that Lebanon, Jordan, Syria, the future of the region 
is one that has a positive future and not as a spiral downward. 
Thank you very much.
    Ms. Ros-Lehtinen. Thank you so much. So we will vote and 
come back with--we have members to ask questions. Thank you. 
Please excuse us.
    [Recess.]
    Ms. Ros-Lehtinen. The subcommittee has reconvened. Thank 
you for your patience.
    And we are honored to recognize Mr. Kinzinger, who is one 
of our many American heros on this panel. Thank you for your 
service.
    Mr. Kinzinger. Oh, that is kind. Thank you very much.
    Ms. Ros-Lehtinen. You deserve it.
    Mr. Kinzinger. Thank you.
    And to the panel, as I said in my short opening statement, 
thank you very much for being here. This is a situation in 
Syria that is only going to get worse. You know, you look at 
what is happening, for instance, in Ukraine and Russia, and you 
know that if the worst happens there at some point, there will 
still be an end game to what is happening.
    In Syria, you are only going to continue to see the problem 
grow and grow and spread and spread into places that we have 
always considered to be good allies, places that we have 
considered to be safe in the Middle East. Just look at Iraq. I 
believe it was an epic mistake to pull all the troops out of 
Iraq--that is for another hearing--but what you see in western 
Iraq right now is the increase in Al Qaeda and ISIS in part of, 
and partially because of, what is happening in Syria today. 
This is a very big deal.
    Doctor, when you started talking about and documenting the 
use of chemical weapons--and hello, by the way, and thanks for 
being here--it really breaks my heart to see that this is still 
happening. America has always held that there would be a red 
line against chemical weapons use. In fact, we had two no-fly 
zones over Iraq for 10 years because of the use of chemical 
weapons, and I have been well documented in saying it was an 
epic mistake not to enforce the red line that the President put 
down, but let me ask you, sir, could you briefly talk just a 
little bit more about what you have seen and how often are 
these chemical weapons being used, even though it may be 
chlorine gas and not gas that we necessarily--well, why don't 
you just talk about what you have seen and a little more on 
that level.
    Dr. Sahloul. Well, thank you very much for raising this 
point, because it is very important for the American public to 
know that the chemical weapon is still being used in Syria, and 
it is used against civilian population, and it is causing death 
and injuries among civilian population.
    Since the beginning of this year, 2014, there were 16 
incidents of chemical weapon use. The first few ones were 
around Damascus and the City of Harasta, and it did not attract 
that much attention because few people had symptoms or died. In 
the--since April 11th, where you had the largest attack in Kafr 
Zaita, which is a village north of Hama, Hama is the city--a 
major city in Syria, which I am sure that people are aware of, 
you know, it had a lot of population death at the time of the 
father of this President, Hafez al-Assad, and about 200 people 
had symptoms, respiratory symptoms, and one or two died because 
of that. And this is the City of Kafr Zaita.
    Since then, and the city--I mean, someone may ask, why is 
it this city? Because it is on a strategic supply road that 
connects Hama to Aleppo. Aleppo is a major city where there is 
a lot of fighting, and this village that is under the control 
of the opposition falls on that access road. And this village 
has been attacked five times so far. The last one was 
yesterday.
    There is also another village in the city of--in the 
governance of Idlib that also had a major attack. We believe 
that it is chlorine gas, because of the symptoms. We believe 
that this is against the prohibition of chemical weapon 
convention, and we believe this is against the red lines that 
we put, and we believe that this is something that the world 
community and the United States administration has to pay 
attention to.
    I made sure that when we received the medical report, to 
share it with the National Security Council, with the State 
Department and with Ambassador Power about 2 weeks ago. So 
every information that we get about chemical weapons use--and 
mostly it is medical and testimonial physicians and so forth--
we share it with the administration.
    Mr. Kinzinger. Well, thank you very much. And I just want 
to be very clear, too. As bad as chemical weapons are, we are 
also seeing, as you discussed, a terrible weapon being employed 
called barrel bombs, something that I had never heard of until 
this conflict, and now I realize how absolutely indiscriminate 
it is in who it kills and what it clears. I believe that the 
cost of Assad of using chemical weapons and using barrel bombs 
needs to exceed any benefit he gains from that, and that would 
be through, in my belief, military strikes.
    Let me ask everybody on the panel, what impact would--I 
want to make one point, and then I will ask everybody on the 
panel. First off, I want to make it very clear that the Free 
Syrian Army has diverted resources against Assad to fight 
extremists, so there is a belief somehow in the American public 
that the opposition is all extreme. The Free Syrian Army has 
been very clear that they are fighting a two-front war at this 
point, both against the Assad regime and against the extremists 
in Syria.
    Let me ask the question to all the panel, and then I am 
sure my time will be up. If the United States and the West were 
able to implement a no-fly zone over Syria, how would that 
impact the ability to deliver aid, both to populations outside 
of Syria and to populations within Syria?
    And, Ms. Koppel, I guess we will start with you.
    Ms. Koppel. Thank you, Congressman. I hope you will 
understand that as a humanitarian--representative of a 
humanitarian organization, we leave it to those experts in the 
military to provide advice on that, but what I can say is that 
in light of this very fluid theater and in light of the 
increasing danger in this theater inside Syria, it is 
incredibly important that we not politicize humanitarian 
assistance, that we keep these channels separate.
    Organizations like ours operate on a community-based 
acceptance level. That means we don't drive in the MRAPs. We 
are not in armored cars. We don't have weapons. Our security, 
our insurance policy is the fact that the community knows that 
we are impartial and we are independent and we abide by the 
utmost humanitarian principles.
    Mr. Kinzinger. Under----
    Ms. Koppel. And so if humanitarian aid is given to those 
who have a political agenda, that puts a bull's eye on the 
backs of my colleagues who are risking their lives inside 
Syria, and, Congressman, it puts a bull's eye on the backs of 
the Syrian civilians who are receiving this assistance. So----
    Mr. Kinzinger. So do barrel bombs. Those put a bull's eye 
on the back of Syrian civilians, too.
    Madam Chair, can I ask for----
    Ms. Ros-Lehtinen. Of course, you can.
    Mr. Kinzinger. Ms. Solberg, would you talk about--and, 
again, my question is just simply--you don't have to get into 
the politics of should we do a no-fly zone, but if we did a no-
fly zone, how would that that help in terms of administering of 
aid?
    Ms. Solberg. Thank you, Chairman. I would--sorry--
congressman. I would say that I completely agree with what my 
colleague, Ms. Koppel, has said from that perspective.
    What we know is that we are reaching maybe 10 percent of 
the people who need assistance inside Syria. The numbers 
continue to grow in neighboring countries. If we can have 
increased access from a very specific humanitarian perspective 
to get in and reach those people in need, that is what we are 
trying to do. And I would say from, again, following 
humanitarian principles, impartiality, reaching those in need, 
that is our objective.
    Mr. Kinzinger. Right. Well understood.
    Ms. Wanek.
    Ms. Wanek. To echo my colleagues as well, as a humanitarian 
organization, we very much don't--don't comment on nor have----
    Mr. Kinzinger. I understand all that; you guys can't 
advocate, but would it happy in terms--is your access limited 
because people are being bombed and killed?
    Ms. Wanek. I think we had need to do everything we can to 
provide humanitarian assistance in an impartial manner to those 
that are affected that are the most vulnerable.
    Mr. Kinzinger. And, Doctor, what about you?
    Dr. Sahloul. I can tell you that in the last 6 months, we 
had four of our hospitals that were supported by tax money 
bombed by barrel bombs. One of them actually was bombed by a 
guided missile. So, definitely, if we have a way to reduce the 
impact of these weapons of mass destruction, I mean, I am 
talking about barrel bombs, 500 kilograms of TNT, then that 
will make it easier for us to perform our operation, and also 
it would make it easier for refugees and displaced people to 
come back to their neighborhoods and give also breathing room 
for the civic societies so they can operate in the areas that 
are not able to do that right now.
    Mr. Kinzinger. Understood.
    And, Ms. Romero, do you have any comments on that?
    Ms. Romero. Yeah. I mean, I have to be boring and say we 
have to be impartial, too.
    Mr. Kinzinger. I understand.
    Ms. Romero. However, I will add a couple of things.
    Mr. Kinzinger. It is not boring. It is okay.
    Ms. Romero. We have been calling for humanitarian 
ceasefires and pauses, because we share the view, yeah, we need 
to be able to get through, and insecurity means that we are not 
able to get through with aid. So we do need measures taken by 
both parties to the conflict, or more than both--than two at 
this point to allow access to civilian populations to deliver 
aid.
    But no-fly zones, humanitarian corridors, all of those, 
they have had mixed results in the past. We would urge that if 
they are looked at, that we consider past experiences, that we 
learn from those lessons and weigh whatever the benefits are 
against the cost to civilians.
    Mr. Kinzinger. Thank you.
    And, Madam Chair, there are 180,000 people that have died 
in this conflict and, sadly, more to come that I would believe 
if they could today would thank you for having this hearing. I 
yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir. Thank you.
    The chair recognizes herself for some other questions, if 
that is okay. Mr. Deutch will later as well.
    How much of your work is done primarily through middlemen 
or through direct assistance? And if you use intermediaries, 
what sort of vetting process do you have that--not that you can 
guarantee that the aid will get to the right people, but how do 
you manage that? Ms. Koppel.
    Ms. Koppel. Madam Chairwoman, thank you for the question. 
We have a ``do no harm'' approach under guiding humanitarian 
principles, as we have said, of independence and impartiality. 
Mercy Corps has been working inside Syria for the last almost 2 
years, and while we did have some expatriate staff working 
inside the country, as it became more dangerous, they have had 
to withdraw. And our staff are entirely Mercy Corps staff, but 
they are almost 100 percent Syrian, and so we work directly 
with them.
    Our reviews and the compliance and accountability that we 
put in place with all of our employees is of the highest 
standards. We ask, when we are working through these relief 
committees and through community-based organizations, that they 
provide us with a list of the most vulnerable people. We then 
vet that list with them. We have Mercy Corps staff that are 
there for at least 60 percent of the distributions that take 
place. We then follow up after the distribution with a random 
sampling of about 5 percent of the people who receive the aid 
to ensure that in fact they were the ones who got it.
    We have other standards in place such that if any check is 
going to be signed, the person who made the--who issued the--
for example, if it was a purchase of some kind, that they are 
not the one, then, who follows up to ensure that the money was 
paid to the right vendor. There are three people who would be 
involved in that, all of whom were not engaged in the initial 
procurement.
    Following up after a distribution, we usually then have 
every 3 to 4 months meetings with the civil society actors, the 
relief committees to see how things are going, to get feedback 
from them, and to ensure that we are able to adapt as we go.
    We also make sure from the outset that our partners know 
that we will not allow, if we have any sense and an inkling 
that there is divergence of aid or the possibility of 
divergence of aid, Mercy Corps will not work in that 
neighborhood. So--and the other piece is that we do not 
negotiate with any armed actors. So we are only working with 
civilians and people from the community.
    Ms. Ros-Lehtinen. Very clear. Thank you.
    Anyone else? Ms. Solberg and then Dr. Sahloul.
    Ms. Solberg. Sure. Thank you, Madam Chairwoman. I would 
just say in terms of our work in Syria, we are working through 
partners, through local partners who we identify through a 
process of referrals. We carry out very, very in-depth due 
diligence processes, and, again, following our humanitarian 
principles, and we do a lot of capacity building and working 
hand in hand with those partners.
    We also have developed third-party monitoring systems, 
which, in fact, we are sharing with other humanitarian 
organizations who are doing work in Syria as well, so we can 
learn from each other and really also trying to strengthen the 
coordination amongst the different organizations who are 
working in Syria.
    In terms of our refugee programming, we do direct 
implementation ourselves as well as working with partners to 
do--and a lot of that has to do with making sure we are 
identifying the differing needs of women, men, boys and girls. 
And we also enlist the--or give opportunities for Syrian 
refugees to also volunteer and be participants in our 
programming in our urban refugee centers.
    Ms. Ros-Lehtinen. Congratulations.
    Ms. Wanek.
    Ms. Wanek. Thank you. I just wanted to add in as well the 
dynamic of speaking about Lebanon as well when we speak of this 
crisis. Global Communities also strictly adheres to all the 
U.S. legal and regulatory requirements to ensure that no 
support is given to any organization or person that is in any 
way connected to terrorism.
    So some of the ways that we ensure this compliance would be 
through the vetting of all organizations and individuals with 
which we work through the U.S. Treasury's Office of Foreign 
Assets Control, or OFAC, through the System for Award 
Management, or SAM, and any U.N. sanction lists, as well as 
being vigilant and following all executive orders and other 
legal parameters that prohibit transactions with a provision to 
aid to those associated with terrorism.
    And I think it is important as well to note that we have 
been working in Lebanon, for example, since 1997, and so being 
very much present in the communities, having a community-based 
approach very much makes it possible for us to rely on the deep 
knowledge of the people that we work with to ensure that the 
assistance that we are providing there goes exactly where we 
want it to.
    Ms. Ros-Lehtinen. Very good. Thank you.
    Doctor?
    Dr. Sahloul. I just want to mention that the Syrian 
American Medical Society, or SAMS, besides sending medical 
missions, we have about 120 of our physicians who went into 
medical missions in the last year or so, but we also send 
medical supplies. In the United States, we have about 1,600 
members who are members of the Syrian American healthcare 
professionals, but we have regional offices in Turkey, Lebanon 
and Jordan. For example, the Cuban American community sent 
about 4 tons of medical supplies with our help. So we sent it--
we have an agreement with the Turkish Red Crescent, that they 
will receive these supplies, they will put it on the border, 
and then our network inside Syria will take the supplies and 
distribute it to hospitals in Aleppo. We take pictures, we take 
reports, we take--and our network also tracks the numbers of 
patients who are benefited. And we have extensive reporting, 
because we are responsible to our funders, to our donors and 
also to the grantees. Some of them are United States aid, of 
course, organizations. And we have several ways to make sure 
that every piece of equipment or supply that is sent is also 
reported and documented to our donors and to our funders.
    Ms. Ros-Lehtinen. Thank you so much, Doctor.
    Ms. Romero.
    Ms. Romero. Yes. Similar to our colleague organizations, we 
have a mix of direct implementation. We also work with 
ministries of health and education and their local offices, and 
we work through partners. Where we have a history of working, 
we are working with organizations that we have worked with for 
a long time and ministries that we have worked with for a long 
time, but we do have vetting and other standards for vendors 
and for other partners that we work with, as well as evaluation 
and monitoring mechanisms.
    Ms. Ros-Lehtinen. Thank you to all of you.
    Mr. Deutch.
    Mr. Deutch. Thanks, Madam Chairman.
    I wanted to get back to the broader funding issue. I am 
appalled by the lack of response to the U.N. appeal. And a 
number of you have spoken generally about the need to speak up 
and push to ensure that others from around the globe are 
meeting their obligations. Can you speak in--can you be more 
direct? Where can we be the most helpful? Who should be doing 
more? Who isn't? What is the rationale? How do we engage in 
this in a way that will actually ensure that others do what 
needs to be done in order to help address this dire situation?
    Any of you. Yes, Ms. Wanek.
    Ms. Wanek. I think an important tenet that we need to face 
this with is to sort of understand that prevention is cheaper 
than intervention, that very much we need to approach this as 
these are just the types of issues that we can approach now to 
provide the humanitarian assistance that is needed to be able 
to somewhat stabilize what could really be a critical situation 
out there between refugees and host communities. So, I mean, I 
would continue to ask for you to put pressure on your 
colleagues and on other governments to uphold their pledges.
    Mr. Deutch. Okay.
    Dr. Sahloul.
    Dr. Sahloul. A couple of comments. First of all, I just 
want to make sure that we make sure that our administration 
appreciates the effort that is done by the neighboring 
countries, especially the Government of Turkey, because they 
have spent $3 billion for refugees. The healthcare provided is 
for free education. It is for free. It is a model country in 
terms of hosting refugees. Of course, to some extent also the 
same thing with the Government of Jordan and Lebanon and Iraq. 
Lebanon probably is the most needy country among the four 
neighboring countries in terms of Syria, because the scale of 
the refugees and the fact that it has limited resources, 
followed by Jordan.
    I think we need leadership from our administration, because 
the funders or the countries that are able to fund the 
humanitarian assistance listen to what we have to say. So if we 
pressure the Gulf countries, for example, and tell them, why 
don't you increase your support, and they have done it before 
when we asked them to do that, I think they will increase their 
support; maybe not through the United Nations, because they are 
hesitant to send supplies or assistance that will go through 
the regime ways, but maybe through other NGO's.
    Mr. Deutch. So just play that out a little bit, the 
difference between funding through--funding through the NGO's 
and governments and the U.N. What is--how best to engage the 
countries? Look, it is the request was for $6.5 billion for 
this year, right, and just over $1 billion has been pledged. 
Now, the balance of that--you are not telling me the balance of 
that--they haven't stepped to the--they haven't stepped to the 
table with the balance of that, because they don't like where 
the money is going?
    Dr. Sahloul. Well, that is part of the issue, in my view, 
that they feel that the assistance that is provided through the 
United Nation agencies are going only through the regime-
controlled areas. I mean, I can tell you that you have people 
died of starvation 10 minutes away from the United Nations 
headquarters in Damascus, and when people hear these reports 
and see the pictures of patients dying of starvation 10 minutes 
away from the heart of Damascus and you have all of United 
Nations agencies in the heart of Damascus, they will be 
hesitant to support these operations. But they know, for 
example, that other NGO's that are going through the borders 
from Jordan or Turkey are able to reach any population, of 
course, except for the population who are under complete siege; 
that is very difficult to get to them. There are 250,000 people 
who are under siege at this point.
    Mr. Deutch. Ms. Romero, you had, I think, spoken, not as 
directly as I hope you might now, about where we might exert 
that pressure to be useful.
    Ms. Romero. Yeah. I mean, I agree more pressure on the Gulf 
probably makes sense, but I was just looking at the list in 
front of me of who has funded and who hasn't. And, you know, 
traditionally we have really kind of relied on Europe to kind 
of step up and be the next big humanitarian donor. With the 
crisis there, I think, unfortunately, we are in a place where 
we are being expected to give a bit more, but some countries 
have been less affected by the crisis there, you know, are 
quite low, Norway, Finland, or going to further south out of 
Europe, Australia hasn't given that much.
    So I think, you know, we can look at some traditional 
allies that have given generously to other crises and to other 
parts of the world and really target our diplomatic pressure in 
that way.
    Mr. Deutch. And in the past, who has taken--who has taken 
the lead in galvanizing the support for addressing other 
crises?
    Ms. Romero. I would say the U.S., the U.K. and ECHO, the 
European Commission.
    Mr. Deutch. Anyone else? All right.
    I would appreciate it, if there are some specific 
suggestions that you would be more comfortable making in a 
different setting, I hope that you will feel free to reach out 
to us, because there is such an enormous amount that needs to 
be done, all of you, again, know better than anyone.
    And, Madam Chairman, it is disheartening for us to have 
these hearings as often as we have to, but the fact is that the 
situation on the ground is only going to worsen, so I commend 
you for calling this hearing and I appreciate the time.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. And what was that 
phrase that you used, the numbness, psychic----
    Mr. Deutch. Psychic numbing.
    Ms. Ros-Lehtinen. Numbing.
    Mr. Deutch. Is what----
    Ms. Ros-Lehtinen. Yes. I think that what we see--because it 
is sort of like a Whac-A-Mole foreign policy crises. We are 
sending 80 boots on the ground to Nigeria, as well we should--
it is a terrible situation--but we move from crisis to crisis, 
and we have forgotten what stirred our conscience just as 
recently as this terrible situation, humanitarian crisis in 
Syria, and now we are focused elsewhere, and it seems that we 
do have some of that psychic numbing, but we can do better. We 
must do better.
    Thank you. Thank you for being here. Thank you for your 
testimony. Thank you to your organizations. Those caregivers, 
those workers, what they do day in and day out, it is 
inspiring. So thank you very much. And with that, this hearing 
is adjourned.
    [Whereupon, at 3:48 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                     <Hoarfrost><F-dash><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
